   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Office of Audit Services, Region III
                                                                       Public Ledger Building, Suite 316
                                                                       150 S. Independence Mall West
                                                                       Philadelphia, PA 19106-3499




September 28, 2011

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Stephen Virbitsky/
               Regional Inspector General for Audit Services


SUBJECT:       Health Resources and Services Administration’s Bureau of Primary Health Care
               Facility Investment Program Grants — Internal Control Review of the Process for
               Monitoring American Recovery and Reinvestment Act Funds (A-03-10-00360)


The attached final report provides the results of our internal control review of Health Resources
and Services Administration’s (HRSA’s) Bureau of Primary Health Care’s (BPHC’s) process for
monitoring American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
funded Facility Investment Program (FIP) grants. This review was part of the Office of
Inspector General’s assessment of whether the Department of Health and Human Services is
using Recovery Act funds in accordance with legal and administrative requirements and is
meeting the accountability objectives defined by the Office of Management and Budget.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls, oversight mechanisms, and other approaches to meet the
accountability objectives of the Recovery Act.

Our objective was to assess the internal controls HRSA has in place over the FIP grant-
monitoring process used by BPHC to monitor Recovery Act funds to determine whether the
controls have been suitably designed.
Page 2 - Mary Wakefield, Ph.D., R.N


The internal controls for monitoring Recovery Act funds to grantees, as described by
management, are suitably designed to provide reasonable assurance that the specified control
objectives would be achieved if the described internal controls were complied with satisfactorily
and applied as designed. However, we did not perform procedures to determine the operating
effectiveness of these internal controls. Accordingly, we express no opinion on the operating
effectiveness of any aspect of HRSA’s internal controls for monitoring Recovery Act funds,
individually or in the aggregate.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Michael Walsh, Audit Manager, at (215) 861-4480 or through email at
Michael.Walsh@oig.hhs.gov. Please refer to report number A-03-10-00360 in all
correspondence.


Attachment
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



     HEALTH RESOURCES AND
   SERVICES ADMINISTRATION’S
BUREAU OF PRIMARY HEALTH CARE
 FACILITY INVESTMENT PROGRAM
            GRANTS –
INTERNAL CONTROL REVIEW OF THE
    PROCESS FOR MONITORING
    AMERICAN RECOVERY AND
    REINVESTMENT ACT FUNDS

                        Daniel R. Levinson
                         Inspector General

                         September 2011
                          A-03-10-00360
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

An Office of Management and Budget (OMB) memorandum (April 3, 2009) updated initial
implementing Recovery Act guidance (February 18, 2009) and requires that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Health Resources and Services Administration

The Health Resources and Services Administration (HRSA) increases access to basic health care
for those who are medically underserved. HRSA implements its programs through its 6 bureaus
and 13 offices. The Office of Federal Assistance Management (OFAM) assists and oversees the
bureaus. The bureaus, in conjunction with OFAM, establish goals and policies for the grant
programs and activities needed to administer the programs. The Bureau of Primary Health Care
(BPHC) assesses the health care needs of underserved populations. BPHC awards grants to
health centers to support primary health care services for the underserved and move toward
eliminating health disparities.

Recovery Act Funding for the Facility Investment Program

The Recovery Act provides $2.5 billion to HRSA to help stimulate the economy through the
support of health care access for the underserved. Of the $2.5 billion, $2.0 billion was
appropriated to support, modernize, and renovate health centers. The remaining $500 million
was appropriated to address the workforce shortage of health professionals.

Of the $2.0 billion that the Recovery Act appropriated to support, modernize, and renovate
health centers, HRSA apportioned $525 million to BPHC for Facility Investment Program (FIP)
grants. As of April 2010, HRSA had selected 85 FIP grantees to receive awards totaling $508
million for major construction, repairs, and modernization of facilities. These competitive
awards ranged from $792 thousand to $12 million. In June 2010, we issued a report on our
review of internal controls over HRSA’s process for awarding facility investment program grants
funded under the Recovery Act (A-03-09-00364).




                                                i
OBJECTIVE

Our objective was to assess the internal controls HRSA has in place over the FIP grant-
monitoring process used by BPHC to monitor Recovery Act funds to determine whether the
controls have been suitably designed.

SUMMARY OF RESULTS

The internal controls over the grant-monitoring process used to monitor BPHC’s Recovery Act
funds as described by HRSA management are suitably designed to provide reasonable assurance
that the specified internal control objectives would be achieved if the described internal controls
were complied with satisfactorily and applied as designed.

This report provides a sufficient understanding of HRSA’s competitive grant process for
awarding Recovery Act funds to FIP grantees as it pertains to control objectives in the following
internal control areas: authorization and approval; accuracy, completeness and validity; physical
safeguards and security; error handling; and segregation of duties.




                                                 ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION ......................................................................................................................... 1

          BACKGROUND ............................................................................................................... 1
              Recovery Act Requirements .................................................................................. 1
              Health Resources and Services Administration ..................................................... 1
              Bureau of Primary Health Care.............................................................................. 2
              Division of Payment Management......................................................................... 2
              Recovery Act Funding for the Facility Investment Program ................................. 2
              Health Resources and Services Administration Grant-Monitoring Process .......... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................... 3
               Objective ................................................................................................................ 3
               Scope ...................................................................................................................... 3
               Methodology .......................................................................................................... 3

RESULTS OF REVIEW ............................................................................................................. 4

          AUTHORIZATION AND APPROVAL .......................................................................... 5
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are in Accordance With Laws,
                Regulations, Recovery Act Guidance, and Agency Policy................................. 5
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used To Monitor the Program
                Are in Accordance With Laws, Regulations, Recovery Act Guidance,
                and Agency Policy .............................................................................................. 5
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Monitoring Procedures Are Established and in
                Accordance With Laws, Regulations, Recovery Act Guidance,
                and Agency Policy .............................................................................................. 6
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use and Reporting
                of Grant-Funded Operations Are in Accordance with Laws, Regulations,
                Recovery Act Guidance, and Agency Policy ...................................................... 6
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and in Place ............................ 6

          ACCURACY, COMPLETENESS AND VALIDITY ...................................................... 7
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an Economical and
                Efficient Manner ................................................................................................ 7


                                                                    iii
          Internal Control Objective 2: Internal Controls Provide Reasonable
            Assurance That Procedures Used To Monitor Grants and Related
             Transactions Are Efficient ................................................................................ 7
          Internal Control Objective 3: Internal Controls Provide Reasonable
            Assurance That the Agency has Mechanisms in Place to Monitor Grant
            Funds ................................................................................................................... 8
          Internal Control Objective 4: Internal Controls Provide Reasonable
            Assurance That Funds Drawn Are Commensurate With Project Completion ... 8
          Internal Control Objective 5: Internal Controls Provide Reasonable
            Assurance That Grantee Records Are Periodically Substantiated and
            Evaluated............................................................................................................. 9

PHYSICAL SAFEGUARDS AND SECURITY............................................................... 9
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Grant and Accounting Records, Critical Forms,
       Processing Areas, and Processing Procedures Are Permitted Only in
       Accordance With Policy ..................................................................................... 9
     Internal Control Objective 2: Internal Controls Provide Reasonable
       Assurance That Valuable Assets and Information Are Safeguarded From
       Unauthorized Access or Use ............................................................................... 9

ERROR HANDLING ...................................................................................................... 10
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the Health Resources and Services Administration
      Accurately and Promptly Classifies, Summarizes, and Reports Adjustments
      to Grant Information and Records .................................................................... 10

SEGREGATION OF DUTIES ........................................................................................ 10
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual To Both Cause and
       Conceal Errors Are Reduced ............................................................................ 10




                                                           iv
                                       INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

The Recovery Act requires that agencies maintain a high level of Transparency and
Accountability in the use of Recovery Act funds. An Office of Management and Budget
(OMB) memorandum (April 3, 2009) updated initial implementing Recovery Act guidance
(February 18, 2009) and requires that all Federal agencies and departments receiving Recovery
Act funds must maintain strong internal controls and implement appropriate oversight
mechanisms and other approaches to meet the accountability objectives of the Recovery Act.

The five crucial accountability objectives are:

   •   Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

   •   Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

   •   Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

   •   Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

   •   Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

Health Resources and Services Administration

The Health Resources and Services Administration (HRSA) increases access to basic health care
for those who are medically underserved. HRSA establishes policies over its grant monitoring
process and provides standard terms and conditions for each type of grant program. HRSA
implements its programs through its 6 bureaus and 13 offices, which provide leadership and
financial support to health care providers through a wide range of programs and initiatives
designed to safeguard the health and well-being of the Nation’s most vulnerable populations.




                                                  1
Congress legislatively authorizes HRSA programs. The legislation defines the purpose and
provides appropriations for these programs. HRSA’s Office of Federal Assistance Management
(OFAM) assists and oversees the bureaus. The bureaus, together with OFAM, establish goals
and policies for the grant programs and activities needed to administer the programs.

Bureau of Primary Health Care

The Bureau of Primary Health Care (BPHC) monitors both discretionary and formula grants.
BPHC assesses the health care needs of underserved populations and monitors grants to health
centers that support primary health care services and move toward eliminating health disparities
for the underserved.

Division of Payment Management

The Division of Payment Management provides centralized electronic grant and grant-type
payment, cash management, and grant accounting support services to the Department of Health
and Human Services (HHS) and other Federal departments and agencies. 1 As a fiscal
intermediary between Federal awarding agencies and award recipients, the Division of Payment
Management operates and maintains the Payment Management System, an electronic grant
payment system that provides disbursement, grant monitoring, reporting, and cash management
services to both awarding agencies and grant recipients.

Recovery Act Funding for the Facility Investment Program

The Recovery Act provided $2.5 billion to HRSA to help stimulate the economy through the
support of health care access for the underserved. Of the $2.5 billion, $2.0 billion was
appropriated to support, modernize, and renovate health centers. The remaining $500 million
was appropriated to address workforce shortages of health professionals.

Of the $2.0 billion that the Recovery Act appropriated to support, modernize, and renovate
health centers, HRSA apportioned $525 million to BPHC for Facility Investment Program (FIP)
grants. As of April 2010, HRSA had selected 85 FIP grantees to receive awards totaling $508
million for major construction, repairs, and modernization of facilities. These competitive
awards ranged from $792 thousand to $12 million.

Health Resources and Services Administration Grant-Monitoring Process

OFAM provides guidance relating to the laws, regulations, and policies for administration of
HRSA grants. It also conducts operational planning, review, awarding, and management of
HRSA’s portfolio of grants. Within OFAM, there are four divisions: Division of Financial
Integrity, Division of Grants Policy, Division of Grants Management Operations, and Division of
Independent Review. Each division has standard operating procedures.


1   The Division of Payment Management is a division of HHS’s Program Support Center.

                                                       2
For the most part, HRSA monitors FIP grants online through HRSA’s Electronic Handbooks, a
project management system. BPHC and the Division of Grants Management Operations use the
Electronic Handbooks to monitor progressive stages of funded construction projects from the
Notice of Grant Award to completion. The Electronic Handbooks also enables electronic
signature.

The Division of Payment Management establishes an account for each grant that allows the
grantee to draw funds. The Division of Payment Management also monitors the activity of grant
funds through the Payment Management System and alerts HRSA to irregularities, such as idle
funds and excessive withdrawals from the grant’s account.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls HRSA has in place over the FIP grant-
monitoring process used by BPHC to monitor Recovery Act funds to determine whether the
controls have been suitably designed.

Scope

We assessed HRSA’s internal controls over the grant-monitoring process used by BPHC to
monitor Recovery Act funds to health centers through FIP competitive grants. 2 We limited our
assessment to determining whether existing internal controls adequately achieved the internal
control objectives for: (1) authorization and approval; (2) accuracy, completeness and validity;
(3) physical safeguards and security; (4) error handling; and (5) segregation of duties.

We did not perform procedures to determine the operating effectiveness of these controls.
Accordingly, we express no opinion on the operating effectiveness of any aspects of HRSA’s
internal controls over the grant-monitoring process that BPHC used to monitor Recovery Act
funds, individually or in the aggregate.

We performed fieldwork at HRSA headquarters offices in Rockville, Maryland.

Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing, or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of BPHC’s control environment, we:

    •   reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
        by OMB, that BPHC must follow for monitoring grants;

2 In June 2010, we issued a report on our review of internal controls over HRSA’s process for awarding facility

investment program grants funded under the Recovery Act (A-03-09-00364).

                                                         3
   •   reviewed HRSA’s organizational structure, including segregation of functional
       responsibilities, policy statements, operating manuals, and personnel policies;

   •   reviewed the HRSA Federal Managers’ Financial Integrity Act report;

   •   reviewed the HRSA Grants Management Cycle Memorandum for fiscal year ending
       September 30, 2008;

   •   reviewed the BPHC spending and implementation plans for FIP grants;

   •   interviewed HRSA and BPHC management as well as operations, administrative and
       other personnel responsible for developing, assuring adherence to, and applying internal
       controls; and

   •   reviewed the grant monitoring process for grants funded with Recovery Act funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF REVIEW

The internal controls over the grant-monitoring process used to monitor BPHC’s Recovery Act
funds as described by HRSA management are suitably designed to provide reasonable assurance
that the specified internal control objectives would be achieved if the described internal controls
were complied with satisfactorily and applied as designed.

This report provides a sufficient understanding of HRSA’s grant process for monitoring
Recovery Act funds to FIP grantees as it pertains to control objectives in the following internal
control areas:

   •   authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

   •   accuracy, completeness and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

   •   physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

                                                 4
   •   error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

   •   segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.

AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are in Accordance With Laws, Regulations, Recovery Act Guidance,
and Agency Policy

   •   HRSA’s policy is to prepare guidance to grantees about requirements for FIP grants.
       HRSA’s policy further states that guidance is sent to OFAM for review and comments.

   •   HRSA’s policy is to include the “HHS Grants Policy Statement” in all Notice of Grant
       Awards as a term and condition of the award. The “HHS Grants Policy Statement” says
       that grant awards are for the reimbursement of actual and allowable costs incurred, and
       are subject to Federal cost principles. The cost principles are set forth in OMB Circular
       A-87, Cost Principles for State, Local and Indian Tribal Governments (2 CFR part 225)
       and OMB Circular A-122, Cost Principles for Non-Profit Organizations (2 CFR part
       230); and are incorporated by reference in 45 CFR 74.25 and 92.30. The cost principles
       address four tests to determine the allowability of costs: reasonableness, allocability,
       consistency, and conformance. The “HHS Grants Policy Statement” also includes
       administrative and other remedies the Federal Government may use if a grantee does not
       comply with requirements.

   •   BPHC’s Project Officers establish or participate in the establishment of goals for new
       programs and are responsible for developing program guidance.

   •   The Office of General Counsel reviews, provides comments, and signs-off on BPHC
       guidance for both regular programs and Recovery Act programs.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used To Monitor the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

   •   BPHC contacts grantees via email and the Electronic Handbooks to inform them of terms
       and conditions pending on the Notice of Grant Award and progress reports toward FIP
       project completion.




                                               5
   •   BPHC’s Web site contains a wide variety of resource materials that educate grantees
       about applicable regulations and policies governing the administration of grants.
       BPHC staff also provides policy interpretation and consultation to the grantee
       community.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Monitoring Procedures Are Established and in Accordance With Laws, Regulations,
Recovery Act Guidance, and Agency Policy

   •   OFAM assures that goals and policies established by HRSA for grant programs and
       activities are in accordance with laws and regulations and Recovery Act Guidance.

   •   For FIP awards, HRSA’s policy is to monitor the grant completion process with
       consideration for the environmental impact of the projects, cultural and historic
       preservation issues, readiness for Electronic Health Record purchase, and architectural
       and engineering reasonableness.

   •   Before authorizing the grantee to draw funds from the grant account, BPHC and OFAM
       ensure that the grantee has addressed all the terms and conditions on the Notice of Grant
       Award. The Grants Management Officer, an OFAM employee, approves the final Notice
       of Grant Award, which is sent to the grantee.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Control, Use, and Reporting of Grant-Funded Operations Are in
Accordance with Laws, Regulations, Recovery Act Guidance, and Agency Policy

   •   HRSA requires grantees to meet the standards and requirements for financial
       management systems set forth or referenced in 45 CFR § 74.21 or 92.20, as applicable,
       and to meet additional requirements for Recovery Act programs. Requirements for
       grantees’ financial and administrative systems are included in the “HHS Grants Policy
       Statement.”

   •   HRSA may impose corrective actions and/or include special terms and conditions on
       awards or suspend, terminate, or withhold support. OFAM determines whether the
       grantee has the financial management abilities and practices to use Federal resources in
       accordance with Federal rules and regulations on an ongoing basis.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and in Place

   •   The Authorized Organization Representative is responsible to BPHC for ensuring that the
       grantee organization complies with the terms and conditions of individual awards and
       organizationwide requirements, such as those concerning financial management and
       property management.

                                               6
   •   A grantee acknowledges and accepts a FIP award and its associated terms and conditions
       by drawing funds from the grant account made available by the Notice of Grant Award.
       Once the award is accepted by the grantee, HRSA monitors the grantee’s compliance
       with the terms and conditions of the Notice of Grant Award.

   •   OFAM’s Division of Grants Management Operations coordinates all aspects of the grant-
       monitoring process.

ACCURACY, COMPLETENESS AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

   •   HRSA requires that BPHC and OFAM review the terms and conditions in the Notice of
       Grant Awards to ensure all terms and conditions have been met in a timely manner
       before allowing grantees to draw funds from the grant account.

   •   BPHC’s Project Officers monitor the project to ensure the grantees have the needed
       resources available and that grantees are meeting benchmarks established for the
       program. BPHC’s Project Quality Controllers, who are professional architects and
       engineers, comment and assist on the more technical aspects and feasibility of the
       projects.

   •   The Division of Grants Management and BPHC are responsible for ensuring that
       grantees’ comply with the terms and conditions in the Notice of Grant Awards. Revised
       Notices of Grant Awards are issued to monitor grantee-specific terms and conditions.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used To Monitor Grants and Related Transactions Are Efficient

   •   The Division of Grants Management Operations’ Grant Management Officers monitor
       the grant process and the drawdown of funds from the Division of Payment Management
       account.

   •   The Division of Grants Management Operations establishes standards and guides for
       grants management operations, and reviews grantee financial status reports and prepares
       reports and analyses on the grantee's use of funds.

   •   The Division of Grants Management Operations provides technical assistance to grantees
       on financial and administrative aspects of grants projects and develops standard operating
       procedures, methods and materials for the efficient administration of HRSA's grants
       programs.


                                               7
Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That the
Agency has Mechanisms in Place to Monitor Grant Funds

   •   The grant monitoring phase began with the placement of terms and conditions into the
       Notice of Grant Award that was prepared by the Project Officers and grant management
       officers. The terms and conditions levied on Notice of Grant Awards are unique to
       individual grants and require a level of reporting to provide specific information towards
       the overall purpose and objective of the funding opportunity. The Electronic Handbooks
       provides the document status (e.g. not started, in progress, submitted).

   •   HRSA requires that grantees receive reminder emails for submissions due over the next
       30 days and for overdue submissions. Terms and conditions are reviewed by Project
       Officers, grant management officers and project quality controllers to ensure that the
       requirements are met.

   •   The grantee must complete the assigned terms and conditions using the Electronic
       Handbooks. Terms and conditions are reviewed by HRSA staff. At this time, if
       necessary, the monitors may ask the grantee to submit further information. Within the
       Electronic Handbooks the monitors may leave notes for each other on specific topics or
       issues in general. After the monitors agree that the grantee has submitted all required
       material, HRSA sends a revised Notice of Grant Award to the Division of Payment
       Management. The Division of Payment Management establishes an account that allows
       the grantee to draw funds.

   •   OFAM’s Division of Financial Integrity performs a financial assessment and provides
       recommendations to its Division of Grants Management Operations and the bureau to
       which the grant applies.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Funds Drawn Are Commensurate With Project Completion

   •   Grantees must submit quarterly reports with completion estimates and progress updates.
       From these reports, the Project Officers and project quality controllers review the actual
       level of work completed, compared to the expected level of work completed and the
       amount of funds drawn down. The quarterly reports also address other items, such as
       photos of the work site and the necessary permit verifications. The Electronic
       Handbooks will alert the grantee and project officer when the due date for reports is
       approaching. The Project Officers or project quality controllers arrange site visits, on a
       case-by-case basis, to assess the grant’s progress and assist the grantee to meet the
       standard required by the grant so that the work may be accomplished by its expected
       completion date.

   •   HRSA staff will complete the monitoring phase of the project when the grantee
       completes the requirements of the grant and enters the final reporting phase. At this time,

                                                8
       the construction work is complete (or allocated monies spent), and the grantee submits
       required completion documents to HRSA. The Division of Grants Management
       Operations will initiate closeout of the grantee’s account by the Division of Payment
       Management and close the reporting process via the Electronic Handbooks. BPHC will
       close the Notice of Grant Award.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

   •   Pursuant to OMB Circular A-133 and 45 CFR § 74.26, grantees that expend more than
       $500,000 in a fiscal year are required to obtain audits of their organization’s operations
       annually from private accounting firms. Additionally, HRSA provides technical
       assistance and educational outreach to educate staff and to enhance administrative
       oversight of program activities.

   •   OFAM and BPHC use progress reports, financial statement reports and performance
       review reports, correspondence from the grantee, audit reports, site visits, and other
       available information to monitor costs and program results, identify potential problems,
       and identify areas where technical assistance or enforcement action may be necessary.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance With Policy

   •   HRSA maintains an agencywide security program to safeguard and secure access to
       records. In its Fiscal Year 2008 Improper Payments Information Act Risk Assessment
       (risk assessment), HRSA formalized system security requirements for all its financial and
       nonfinancial systems. HRSA’s access controls include formal authorization, password
       requirements, and clearance levels. The risk assessment noted that HRSA also employs
       firewalls, intrusion detection systems, and anti-virus software at multiple tiers for
       information technology security. Finally, the risk assessment noted that HRSA has
       developed an Information Systems Security Plan to evaluate and mitigate potential
       threats.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Valuable Assets and Information Are Safeguarded From Unauthorized Access or Use

   •   HRSA officials told us HRSA has actively addressed security issues by providing
       frequent training to staff. HRSA has developed specialized security training for
       personnel with significant security responsibilities to comply with OMB requirements.
       HRSA also recently updated its security awareness course, which is an annual
       requirement for all personnel who use information systems.


                                                9
   •   HRSA has a number of internal controls in place to ensure the safeguarding and security
       of data. HRSA maintains backup tapes offsite to provide recovery of data. It administers
       a Critical Infrastructure Protection program that emphasizes perimeter protection,
       incident response, and risk assessment. HRSA completes annual self-assessments,
       privacy impact assessments, and security reviews for all Federal Information Security
       Management Act (FISMA) critical systems. HRSA requires certification and
       accreditation for 100 percent of FISMA systems. Certification and accreditation ensures
       that safeguards are implemented effectively and commensurate with risks. HRSA also
       implemented HHS’s “Security & Privacy Online Reporting Tool” for tracking FISMA
       information.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
Health Resources and Services Administration Accurately and Promptly Classifies,
Summarizes, and Reports Adjustments to Grant Information and Records

   •   At all times during the project, if the grantees identify the need to make adjustments to
       the project objectives or documentation and require assistance, they will communicate
       through the Electronic Handbooks system to their project officer. The project officer will
       then find the best course of action to assist the grantee to make corrections.

   •   BPHC monitors the Electronic Handbooks system for errors and to determine if grantees
       are missing documentation.

   •   The Electronic Handbooks system provides document status to BPHC and generates
       automatic notifications to grantees for missing information, including overdue notices.

SEGREGATION OF DUTIES
Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual To Both Cause and Conceal Errors Are Reduced

   •   BPHC’s Project Officers establish or participate in the establishment of goals for new
       programs and are responsible for developing program guidance.

   •   BPHC’s Associate Administrator’s Office, the Office of General Counsel, and OFAM
       review, provide comments, and sign-off on BPHC guidance.

   •   OFAM’s Division of Grants Management Operations is responsible for coordinating all
       aspects of the grant-monitoring process. Grants Management Officers are independent of
       BPHC.



                                              10
•   OFAM’s Division of Financial Integrity is responsible for performing the financial
    assessment and providing recommendations to its Division of Grants Management
    Operations and the bureau to which the grant applies.




                                           11
